     June 29, 2006




Financial Management

Improper Payments for Defense Fuel
(D-2006-094)




                  Department of Defense
                 Office of Inspector General

                                   Constitution of
                                  the United States

     A Regular Statement of Account of the Receipts and Expenditures of all public
     Money shall be published from time to time.
                                                             Article I, Section 9
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Department of
  Defense Inspector General at http://www.dodig.mil/audit/reports or contact the
  Secondary Reports Distribution Unit, Audit Followup and Technical Support at
  (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact Audit Followup and
  Technical Support at (703) 604-8940 (DSN 664-8940) or fax (703) 604-8932.
  Ideas and requests can also be mailed to:

                    ODIG-AUD (ATTN: AFTS Audit Suggestions)
                      Department of Defense Inspector General
                        400 Army Navy Drive (Room 801)
                            Arlington, VA 22202-4704




Acronyms
DESC                  Defense Energy Support Center
DFAS                  Defense Finance and Accounting Service
IPOD                  Improper Payments Online Database
OMB                   Office of Management and Budget
                             INSPECTOR GENERAL
                           DEPARTMENT OF DEFENSE
                            400 ARMY NAVY DRIVE
                       ARLINGTON, VIRGINIA 22202-4704




                                                                           June 29,2006
MEMORANDUM FOR ASSISTANT SECRETARY OF THE AIR FORCE
                 (FINANCIAL MANAGEMENT AND COMPTROLLER)
               DIRECTOR, DEFENSE ENERGY SUPPORT CENTER
               DIRECTOR, DEFENSE FINANCE AND ACCOUNTING
                 SERVICE
               COMMANDING GENERAL, HEADQUARTERS, U.S.
                 ARMY INVESTIGATIVE COMMAND
               DIRECTOR, NAVAL CRTMINAL INVESTIGATIVE
                 SERVICES
               DEPUTY INSPECTOR GENERAL, DEFENSE CRIMINAL
                 INVESTIGATIVE SERVICES
SUBJECT: Report on Improper Payments for Defense Fuel (Project No. D-2006-094)

      We are providing this report for review and comment. We considered
management comments on a draft of this report when preparing the final report.
        DoD Directive 7650.3 requires that all issues be resolved promptly. Comments
from the Defense Finance and Accounting Service were partially responsive. We request
that the Defense Finance and Accounting Service-Columbus Central Site Deputy Director
provide additional comments by July 28,2006.
       If possible please provide management comments in electronic format (Adobe
Acrobat file only) to Audcolu@dodig.mil. Copies of the management comments must
contain the actual signature of the authorizing official. We cannot accept the/ Signed
/symbol in place of the actual signature. If you arrange to send classified comments
electronically, they must be sent over the SECRET Internet Protocol Router Network
(SIPRNET).
        We appreciate the courtesies extended to the staff. Questions should be directed
to Mr. James L. Kornides at (6 14) 75 1-1400 extension 2 11 or Mr. Curt W. Malthouse at
(6 14) 75 1- 1400 extension 230. See Appendix B for the report distribution. The team
members are listed inside the back cover.
                               By direction of the Deputy Inspector General for Auditing:

                                                                            4-




                                      Assistant Inspector General
                                      Defense Financial Auditing
                                                Service
                Department of Defense Office of Inspector General
Report No. D-2006-094                                                     June 29, 2006
   (Project No. D2005-D000FJ-0206.000)

                      Improper Payments for Defense Fuel

                                  Executive Summary

Who Should Read This Report and Why? DoD financial managers and contracting
officials responsible for identifying and reducing improper payments should read this
report because it discusses ways in which DoD can more accurately analyze and report
improper payments related to the purchase of fuel.

Background. Each year, the Office of Management and Budget requires Federal
agencies to complete reviews to determine the amount of improper payments associated
with Government programs and organizations. DoD pays for large amounts of fuel each
year. The Defense Energy Support Center is responsible for contracting for fuel for each
Military Department, and the Defense Finance and Accounting Service-Columbus pays
contractors for the fuel that is delivered. The Defense Finance and Accounting Service-
Columbus paid more than $10.1 billion for fuel during FY 2005 and reported
$22.5 million in improper payments associated with the fuel that the Defense Energy
Support Center bought.

Results. Although it reported $22.5 million in improper payments related to the
procurement of fuel in FY 2005, the Defense Finance and Accounting Service Columbus
and the Defense Energy Support Center did not have adequate control processes in place
to provide assurance that the amount reported was accurate. The Defense Energy
Support Center and the Defense Finance and Accounting Service-Columbus had not
begun the contract reconciliation process on approximately 3,421 fuel contracts which are
required to be completed before closeout, a process that provides the information needed
to determine whether fuel payments are accurate. As a result, the Defense Finance and
Accounting Service-Columbus inappropriately reported to the Under Secretary of
Defense (Comptroller)/Chief Financial Officer that DoD was at low risk for making
improper fuel payments. The Defense Energy Support Center and the Defense Finance
and Accounting Service-Columbus needed to close contracts to improve the baseline of
improper payments related to fuel and permit management to determine the causes of
improper payments and to find ways to reduce the amounts. The Defense Finance and
Accounting Service-Columbus inaccurately reported that it corrected a material weakness
related to the identification of improper payments on commercial and vendor pay
contracts during FY 2005. The Defense Finance and Accounting Service-Columbus
needed to report the material weakness on the identification of improper commercial and
vendor payments in its Annual Statement of Assurance and assign a medium-risk rating
to the fuel payments process. Additionally, the Defense Energy Support Center and the
Defense Finance and Accounting Service-Columbus needed to report a material
weakness related to the problems with the closing of fuel contracts. (See Finding section
of the report for the detailed recommendations.)
Management Comments and Audit Response. The Director, Defense Energy Support
Center concurred with the recommendations. He stated that his Center began submitting
reconciliation requests on contracts in November 2005 and intends to issue procurement
instructions to require all contracting divisions to use the Defense Finance and
Accounting Service-Columbus centralized electronic mailbox for reconciliation requests.
The Director agreed to establish a tracking system to monitor contract reconciliations and
to provide the Defense Finance and Accounting Service-Columbus access to automated
contract information needed to perform reconciliations. He also agreed to report internal
control weakness on the reconciliation and closing of fuel contracts. He also stated that
he issued new procedures for reviewing improper payment referrals that resulted from
data mining efforts. The criminal investigation organizations agreed to coordinate world-
wide fuel investigations with the Defense Energy Support Center fuel fraud attorney.

The Defense Finance and Accounting Service-Columbus Central Site Deputy Director
concurred with two recommendations, partially concurred with two recommendations,
and nonconcurred with two recommendations. He agreed to prioritize contract
reconciliation based on the Contract Completion Statements (DD1594s) received from
the Defense Energy Support Center. He also stated that the Fuels Payment Division is
pursuing the creation of a reconciliation/pre-validation team to accomplish these
reconciliations. He also stated that a post payment process is used as a control
mechanism to ensure the accuracy of improper payment reporting. He further stated that
to correct the weakness related to the reporting of improper payments, the Defense
Finance and Accounting Service-Columbus developed a statistically sound methodology,
during the fourth quarter of FY 2005, to estimate improper payments. He stated that by
October 1, 2006, the Fuels Payment Division will have procedures in place to reconcile
contracts with a standardized reconciliation tool and to report these reconciliations to the
Defense Energy Support Center. The Deputy Director stated that the Defense Finance
and Accounting Service-Columbus had established a baseline for improper fuel
payments. He also stated that the fuel payment activity was not at medium risk for
improper payments because the payments did not exceed 2.5 percent of total payments.
See the Finding section of the report for a discussion of management comments and the
Management Comments section of the report for the complete text of the comments.

We disagree with the Defense Finance and Accounting Service-Columbus Central Site
Deputy Director. Until the backlog of approximately 3,421 contracts awaiting
reconciliation is completed, the baseline for improper fuel payments remains unknown.
The 2.5 percent threshold for improper payments established by the Office of
Management and Budget applies only to high-risk activities and programs and is not
relevant to assessing medium risk. We believe the fuel payment activity is at medium
risk because the baseline of reported improper fuel payments increased from zero in
FY 2003 to $22.5 million in FY 2005. Additional risk of improper payments has been
shown by ongoing data mining and criminal investigations. We request that the Deputy
Director provide additional comments by July 28, 2006.




                                             ii
Table of Contents
Executive Summary                              i

Background                                    1

Objectives                                    2

Managers’ Internal Control Program            2

Finding
     Controls Over Fuel Payments              4

Appendixes
     A. Scope and Methodology                 14
         Prior Coverage                       14
     B. Report Distribution                   16

Management Comments
     Defense Energy Support Center            19
     Defense Finance and Accounting Service   22
     Department of the Army                   26
     Department of the Navy                   27
     Department of the Air Force              28
Background
    Defense Logistics Agency documents indicate that DoD purchases more light
    refined petroleum product than any other single organization or company in the
    world. Each year, it buys fuel for its use in the continuing war on terrorism in the
    Middle East and for accomplishing peaceful global missions. DoD buys a variety
    of types of fuel for its ships, aircraft, and land vehicles and also solicits and
    procures fuel for the Strategic Petroleum Reserve. In FY 2005, DoD procured
    almost $10.1 billion of fuel, which obligates it to comply with the provisions of
    the Improper Payments Information Act.

    Responsibility for acquiring the various types of fuel and for maintaining
    adequate quantities rests with the Defense Energy Support Center (DESC), an
    organization within the Defense Logistics Agency. DESC manages the fuel and
    awards contracts to vendors worldwide to acquire sufficient fuel for the Military
    Departments to maintain uninterrupted operations.
    When fuel is delivered, the Defense Finance and Accounting Service-Columbus
    (DFAS-Columbus) receives an invoice and disburses funds through two vendor
    payment systems: the Automated Voucher Examination and Disbursement
    System and the Fuels Automated System.

    One component of the President’s Management Agenda is an initiative to improve
    financial management by reducing erroneous payments. In May 2003, the Office
    of Management and Budget (OMB) issued Memorandum M-03-13, “Improper
    Payments Information Act of 2002,” (OMB Memorandum M-03-13), that outlines
    how Federal agencies should reduce erroneous payments. Agencies should:

       •   review all programs and processes and identify those that are susceptible
           to significant erroneous payments,

       •   statistically estimate the annual amount of erroneous payments for those
           programs and processes,
       •   implement a plan to reduce the incidence and amounts of erroneous
           payments, and

       •   report program and organizational estimates of the annual amount of
           erroneous payments and progress in reducing them.




                                         1
    OMB Memorandum M-03-13 defines erroneous payments as any payment that
    should not be made or that was an incorrect amount under statutory, contractual,
    administrative, or other legally applicable requirement. Erroneous payments
    include the following:

           •   overpayments;

           •   underpayments (including inappropriate denials of payment or
               service);

           •   payments to an ineligible recipient or for an ineligible service;

           •   duplicate payments;

           •   failure to reduce payments by applicable sales discounts, cash
               discounts, rebates, or other allowances; and

           •   payments for items not received.

    OMB Memorandum M-03-13 requires agencies with more than 2.5 percent of
    annual payments and $10 million in annual improper payments to use statistical
    sampling to estimate the agency’s annual amount of erroneous payments.

    The OMB guidance is being revised and will be included as Appendix C in OMB
    Circular A-123, “Management’s Responsibility for Internal Control.” The
    revision will include detailed procedures on the importance of establishing
    accurate baselines.

Objectives
    The audit objective was to determine whether DoD established adequate control
    procedures to minimize improper payments related to the purchase of fuel. We
    also assessed compliance with applicable laws and regulations. See Appendix A
    for a discussion of the scope and methodology and prior coverage related to the
    objectives.

Managers’ Internal Control Program
    DoD Instruction 5010.40, “Manager’s Internal Control Program Procedures,”
    January 4, 2006, supersedes DoD Directive 5010.38, “Management Control
    Program,” August 26, 1996, and DoD Instruction 5010.40, “Management Control
    Program Procedures,” August 28, 1996. The instruction requires DoD
    organizations to implement a comprehensive system of internal controls that
    provides reasonable assurance that programs are operating as intended and to
    evaluate the adequacy of the controls.
    Scope of the Review of the Managers’ Internal Control Program. The
    management control objective was not an announced audit objective. However,
    because reporting improper payments is a part of the President’s Management

                                         2
Agenda, we determined whether DFAS-Columbus reported a material weakness
related to identifying and reporting improper payments. We also determined
whether DFAS-Columbus performed an adequate risk assessment.

Adequacy of Management Controls. DFAS-Columbus inaccurately reported
that it corrected a material weakness (as defined by DoD Instruction 5010.40)
related to identifying improper payments on commercial and vendor pay
contracts, including fuel payments, during FY 2005. Specifically,
DFAS-Columbus did not implement a plan to use statistical samples to project the
amount of improper payments on commercial and vendor contracts. DESC and
DFAS-Columbus also did not identify problems related to reconciling and closing
fuel contracts. Recommendations 1. and 2., if implemented, will correct the
identified weaknesses in the fuel payment process. A copy of the report will be
provided to the senior officials responsible for management controls at DESC and
DFAS-Columbus.

Adequacy of Management’s Self-Evaluation. The DFAS-Columbus
self-evaluation for FY 2005 inappropriately closed a material weakness related to
improper payments on commercial and vendor contracts. In addition,
DFAS-Columbus inappropriately concluded that the Fuels Payment Division was
at low risk for making improper payments. A separate draft report from
DFAS-Columbus on Compliance of Fuel Systems showed that the
DFAS-Columbus (Stock Fund) was noncompliant with the DFAS Management
Control Program for the systems that process fuel payments. DFAS-Columbus
and DESC need to implement the recommendations in the DFAS-Columbus
compliance study. DFAS-Columbus is still performing this compliance study and
therefore any recommendations are part of an ongoing effort to improve the
payment process.




                                    3
            Controls Over Fuel Payments
            Although they reported $22.5 million in improper payments related to the
            procurement of fuel in FY 2005, the DFAS-Columbus and DESC did not
            have adequate control processes in place to provide assurance that the
            amount reported was accurate. DESC and DFAS-Columbus had not
            begun the contract reconciliation process on approximately 3,421 fuel
            contracts which are required to be completed before closeout, a process
            that provides the information needed to determine whether fuel payments
            are accurate. These conditions existed because DFAS-Columbus had not
            established the root causes for improper payments for fuel. It did not
            establish an accurate baseline for the improper payments and had not
            prioritized contract reconciliations into the daily work load to provide
            results to the DESC in a timely manner. Additionally, it had reported fuel
            payments as medium risk and had not reported weaknesses in
            reconciliation and closing contracts as internal control weaknesses. DESC
            did not submit reconciliation requests for completed contracts to
            DFAS-Columbus, did not establish a system to monitor contract
            reconciliations, did not allow DFAS-Columbus access to DESC contract
            systems, and had not updated its procedures for reviewing improper
            payment referrals from data mining. As a result, DoD could not certify
            that amounts related to improper payments for fuel for FY 2005 were
            accurate.

Identification of Improper Fuel Payments
     DFAS-Columbus did not establish controls to categorize the root causes of the
     improper payments. After initially identifying zero improper fuel payments for
     FY 2003 to the Under Secretary of Defense (Comptroller)/Chief Financial
     Officer, DFAS-Columbus identified $12.4 million in improper fuel payments for
     FY 2004 and $22.5 million for FY 2005. DFAS-Columbus compiled the
     information from manual controls that identified overpayments and from
     automated controls that detected duplicate payments. DFAS-Columbus compiled
     the improper payments in the Improper Payments Online Database.

     Despite the growing amount of improper payments that it identified,
     DFAS-Columbus rated the fuel payment process as low risk for improper
     payments because officials believed that the $22.5 million represented less than
     about two-tenths of 1 percent of the $10.1 billion in payments for FY 2005. In
     addition, DFAS-Columbus believed that significant overpayments and
     underpayments would be identified during the reconciliation process for the
     558 Into-Plane contracts. See the Contract Reconciliation Process paragraph.

     We concluded that the fuel payment process was at medium risk for erroneous
     payments because the $22.5 million exceeds the $10 million threshold that OMB
     established.

     Causes for Improper Payments. Although DFAS-Columbus established reason
     codes to identify what caused the improper payments, the codes did not provide
     sufficient details to identify the root cause, as required by FMR Volume10,
                                          4
Chapter 20, Section 2003, that persisted in the examples we encountered. Instead,
DFAS-Columbus reported on three broad categories of improper payments in its
FY 2006 input to DoD in compliance with the Improper Payments Information
Act: $12,584,756 in overpayments; $7,463,523 in duplicate payments; and
$2,485,982 in payments to the wrong vendor. DFAS-Columbus did not identify
any of the improper payments during contract reconciliation. We believe that the
erroneous payments should be categorized by root cause to identify and correct
problem areas.

The following categories are examples of DFAS-Columbus improper payments:

       Overpayments. Overpayments occur for many reasons: for example,
keystroke errors, noncompliance with established procedures, and faulty or
out-of-date information in the system are a few. The following are examples of
overpayments:

       •   In FY 2005, DFAS-Columbus overpaid a South Korean contractor
           by $3,040,666 because it improperly added the invoice amount for
           FY 2004 to the invoice amount for FY 2005. The amount was
           recouped.

       •   In FY 2005, DFAS-Columbus overpaid a Singapore contractor by
           $2,306,644 because Multi Services Corporation, the vendor
           responsible for inputting invoices to the system for payment,
           calculated the fuel vouchers in liters rather than gallons. This
           overpayment amounted to more than 18 percent of all overpayments
           for FY 2005 and was recouped.

       Duplicate Payments. DESC; DFAS-Columbus; and the DoD Office of
Inspector General, Data Mining Division identified potential duplicate fuel
payments through detailed analyses of automated contract information. The
analyses identified more than $6.5 million in erroneous payments for collection
during FY 2005 with another $868,641 as possible duplicate payments requiring
additional research.

The following examples illustrate some of the invalid payments that DESC and
the Data Mining Division identified. The DESC-San Antonio Office identified:

       •   possible duplicate payments of $868,641 for 2002 through 2004;

       •   fuel transactions processed in error (twice or more) amounted
           to $2,973,743;

       •   credit card transactions processed as noncontract transactions, rather
           than using the DESC refueling contract at that location,
           totaled $3,505,613; and

       •   fuel transactions that were improperly processed twice to the same
           aircraft amounted to $63,346.



                                     5
DESC indicated that the data mining is effective in identifying errors in credit
card payments. Embedded software in the fuel payment systems that identifies
duplicate payments does not identify fuel payments made with the new Into-Plane
contractor credit cards.

DESC began updating desk procedures to use in its review process for identifying
potential duplicate payments through data mining. DESC needs to complete the
desk procedures and issue them quickly so that potential duplicate payments may
be researched.

       Payments to Wrong Vendor. DFAS-Columbus also verified that wrong
vendors are paid when contract numbers are not up-to-date or the banking
information in the payment system is incorrect. The following are examples of
wrong vendors being paid because information was either incorrect or out-of-date:

       •   DESC awarded the new contract for processing credit card
           transactions to a different vendor, but did not update the contract
           number in its fuel payment system. As a result, DFAS-Columbus
           information was incorrect, and the former contractor received
           payments of $2,094,966 instead of the new contractor.
           DFAS-Columbus recouped the improper payments and paid the
           correct vendor.

       •   DFAS-Columbus input the wrong contractor number to the payment
           system, which resulted in an improper payment of $5,313,800.
           DFAS-Columbus identified the error, recouped the overpayment, and
           paid the correct vendor.

The OMB guidance is being revised and will be included in Appendix C of the
future OMB Circular A-123, “Management’s Responsibility for Internal Control.”
The revision will include the best practices for eliminating improper payments.
The guidance states, “Federal agencies should be taking all necessary steps to
ensure the accuracy and integrity of Federal payments,” and uses data mining as
an example of a practice that is yielding positive results in certain Federal
agencies: “Data mining – an automated process used to scan data bases to detect
patterns, trends, and/or anomalies, for use in risk management or other areas of
analysis. This technique can be used to build more effective predictive modeling
criteria, identify control weaknesses that are leading to improper payments, and/or
inform on the most effective oversight and due diligence activities.” DESC needs
to continue using data mining in recouping improper payments in cooperation
with the DoD Office of Inspector General.

Criminal Investigations. The Defense Criminal Investigative Service indicated
that it was working on at least four fuels-related fraud cases amounting
to $179,500. These cases are investigating fuel diversion, product substitution,
fleet card fraud, and invoice falsification. The Naval Criminal Investigative
Service identified 45 instances of fuel-related credit card fraud amounting
to $1,208,206 for September 2001 through July 2005. Almost all cases dealt with
Government credit card fraud. The Army Criminal Investigative Command
records showed 10 examples of fuel-related fraud amounting to at least $33,884
during the past 3 years. These cases consisted of Government credit card fraud

                                     6
     and fuel diversion. Additionally, the Air Force Office of Special Investigations
     indicated that it had two open cases of fuel-related fraud and three closed cases
     with unspecified dollar amounts. Those cases were investigating black marketing
     fuel coupons and fuel diversion. It was also the only military Service
     investigative agency that reported no current fuel-related credit card fraud
     investigations. As fuel prices rise, the incentive for theft and fraud rises, causing
     an increased risk to the Government.

     The DoD investigative agencies need to coordinate all fuel-related investigations
     worldwide with the DESC Fuel Fraud Attorney. In spite of the ongoing criminal
     investigations in the Military Departments, the DoD Service investigating
     agencies did not always inform the DESC Fraud Attorney of the existence or the
     status of the investigations. The DoD Office of Inspector General, in coordination
     with the Service investigative agencies, uncovered several investigations that the
     investigating agencies did not report to the DESC Fraud Attorney. The DESC
     Fraud Attorney expressed concern that, because DESC holds title to the fuel until
     it is issued to a vehicle, it therefore should be informed of all fuel investigations.
     This information allows the DESC Fraud Attorney to detect patterns among all
     the Services and assist with a variety of investigations. The investigative
     organizations also did not have a central office where all information on fuel
     investigations could be located. The organizations were organized according to
     function, depending on the nature of the alleged crime.

     Medium Risk Area. The $22.5 million in improper fuel payments for FY 2005
     and numerous investigations indicate that the fuel payment process risk for
     making improper payments is medium. The amount of improper payments is
     greater than the $10 million OMB threshold, and the amount of criminal activity
     also reflects risk. DFAS-Columbus needs to raise its risk assessment for the fuel
     payment process to medium.

Contract Reconciliations
     DoD Financial Management Regulation, Volume 10, Chapter 20, “Contract
     Reconciliation,” prescribes the policy and standard procedures necessary for
     contract files, related payments, and accounting records to remain complete,
     consistent, and accurate. DESC contracting officers cannot close fuel contracts
     until they submit a DD Form 1594 requesting a contract reconciliation.
     DFAS-Columbus may then complete the requested reconciliation, and identify
     improper payments and other accounting problems.

     The DFAS-Columbus reconciliation process uses various checks and balances to
     determine whether the contract file has all price and administrative modifications,
     that all deliveries were made, and that the total dollar amount disbursed is correct.
     These tasks are accomplished through comparing various queries from the
     Automated Voucher Examination and Disbursing System, the Defense Fuels
     Automated Management System, and the Standard Financial Systems Redesign-1.
     The results of the comparison show any duplicate or over/under payments or
     unbilled payments. Reconciliation checklists will help DFAS-Columbus to
     complete all steps.


                                           7
    As of July 2005, the then-Director of Fuel Payment Operations, DFAS-Columbus
    stated that contracts could not be reconciled because he did not have enough staff
    to complete the manual process. We worked with DFAS-Columbus to determine
    whether the reconciliation process could be automated. However, as of
    January 2006, DFAS-Columbus, working with DESC, could not develop reliable
    automated procedures to reconcile the fuel contracts.

    In January 2006, DESC and DFAS-Columbus officials concluded that they had a
    backlog of 3,421 contracts requiring reconciliation prior to closeout. We could not
    confirm the conclusion. Officials from both organizations indicated this condition
    existed because DESC and DFAS-Columbus did not develop controls for
    processing DD Form 1594-Contract Completion Statements, a key reconciliation
    tool. DFAS-Columbus had no documentation that DESC had been submitting
    DD Form 1594s, therefore a verifiable backlog was not available. However,
    DFAS-Columbus received electronic spreadsheets from DESC with the details of
    contracts that were ready for reconciliation closeout. Although this was not the
    best or most proper procedure in the DoD Financial Management Regulation,
    DFAS-Columbus did perform the reconciliations. We informed DESC about the
    problem with reconciliations and their requests, and DESC began requesting new
    contract reconciliations in November 2005 through a central electronic mailbox at
    DFAS-Columbus. Although DESC contracting officials made errors in filling out
    the reconciliation request forms, DESC was taking action to prepare the forms
    properly in the future.

    Of the 3,421 contracts awaiting reconciliation, 558 were related to Into-plane
    contracts that could have significant overpayments and underpayments. Into-
    plane contracts are indefinite delivery type contracts for refueling only.
    DFAS-Columbus and DESC were working out problems with the new contract
    that affected the automated closeout procedures.

    Another contract closeout problem was that, although DESC was archiving
    contract data into the Automated Voucher Examination and Disbursing System
    and the Defense Fuels Automated Management System, DFAS-Columbus could
    not access this information which it needed for reconciling contracts.
    DFAS-Columbus officials indicated that their staff could automate the closeout
    process if they had access to the DESC systems that contain the contract
    information.

    Improving the contract closeout process within the DoD is a high-level priority of
    the Under Secretary of Defense for Acquisition and Technology because it
    corrects accounting errors and identifies improper payments and other contracting
    errors. Accordingly, DESC needs to provide DFAS-Columbus with automated
    access to its contract information so that DFAS-Columbus can incorporate the
    fuel reconciliation process into its workload.

Conclusion
    Until DFAS-Columbus reduces the backlog of fuel contracts requiring
    reconciliation, DoD will not know the amount of its improper payments, and
    monies owed the Government may become uncollectible after claim expiration

                                         8
    dates. DESC was very concerned about discontinuing contract closeout
    reconciliations; however, it did not always provide DFAS-Columbus with correct
    contract payment data or with DD Form 1594-Contract Completion Statement
    requests properly or timely. DESC also did not provide DFAS-Columbus with
    access to all needed contract information on fuel payments.

Management Comments on the Finding and Audit Response
    Management Comments. The Director, Defense Energy Support Center stated
    that the report incorrectly referred to DESC Into-Plane contracts as credit card
    contracts. He stated that Into-Plane contracts are indefinite-delivery type
    contracts for refueling only. The AIR Card simply is the identification
    mechanism and billing instrument for contract lifts and/or non-fuel items or non-
    contract fuel. The Director of the Air Force Office of Special Investigations
    stated that he did not believe the status of criminal prosecutions was relevant to
    the report. He also stated that we should delete a sentence related to the
    counterintelligence inquiries because the sentence was not related to fraud. He
    also stated that the report should clarify that the Air Force Office of Special
    Investigations had no investigations involving fuel-related credit card fraud. For
    the full text of the comments, see the Management Comments section of the
    report.
    Audit Response. We made corrections to the report to address the comments.

Recommendations
    1. We recommend that the Director, Defense Finance and Accounting
    Service-Columbus:

           a. Establish an accurate baseline for improper fuel payments.

    Management Comments. The Central Site Deputy Director nonconcurred and
    stated that the Fuels Payment Division has an established baseline for improper
    fuel payments for FY 2005 in the Improper Payments Online Database. He also
    stated that the baseline will be verified for accuracy as reconciliations and post
    payment audits are completed.

    Audit Response. The Central Site Deputy Director comments are partially
    responsive. However, until the backlog of approximately 3,421 contracts
    awaiting reconciliation is completed, the baseline for improper fuel payments
    remains unknown. We request that the Deputy Director reconsider his position on
    the recommendation and provide comments on the final report.

          b. Prioritize contract reconciliations into the daily workload and
    provide results to the Defense Energy Support Center, Defense Logistics
    Agency in a timely manner.

    Management Comments. The Central Site Deputy Director concurred and
    stated that the Fuels Payment Division will prioritize contract reconciliation based

                                         9
on the Contract Completion Statements (DD1594s) received from the DESC. He
also stated that the Fuels Payment Division is pursuing the creation of a
reconciliation/pre-validation team to accomplish these reconciliations. He stated
that by October 1, 2006, the Fuels Payment Division will have procedures in
place to reconcile contracts with a standardized reconciliation tool and to report
these reconciliations to DESC.

     c. Report Fuels Payment as medium risk, in accordance with the
Improper Payments Information Act.

Management Comments. The Central Site Deputy Director nonconcurred and
stated that DFAS Columbus does not agree the Fuels Payment Division should be
rated as a medium risk. The Fuels Payment Division’s erroneous payments were
rated low risk based on the OMB Implementation Guidance for the Improper
Payments Information Act of 2002, Public Law 107-300, which states in part,
“Significant erroneous payments are defined as annual erroneous payments . . .
exceeding both $10 million and 2.5 percent of program payments.” Although
improper payments for the Fuels Payments Division did exceed the $10 million
threshold established by the OMB, the improper payments did not exceed
2.5 percent of total program payments.

Audit Response. The Central Site Deputy Director comments are non-
responsive. The 2.5 percent threshold for improper payments established by the
OMB applies only to high-risk activities and programs and is not relevant to
assessing medium risk. We believe the fuel payment activity is at medium risk
because the baseline of reported improper fuel payments increased from zero in
FY 2003 to $22.5 million in FY 2005. Additional risk of improper payments has
been shown by ongoing data mining and criminal investigations. We request that
the Deputy Director reconsider his position and provide comments on the final
report.

       d. Report identification and reporting of improper contract payments
and reconciliation and closing of contracts as internal control weaknesses.

Management Comments. The Central Site Deputy Director partially concurred
and stated that a post payment process is used as a control mechanism to ensure
the accuracy of improper payment reporting. He stated that to correct the
weakness related to the reporting of improper payments, DFAS Columbus
developed a statistically sound methodology, during the fourth quarter of
FY 2005, to estimate improper payments. The statistical methodology is used to
validate the accuracy of the actual improper payments reported in an improper
payments database. Closure of the material weakness was based on an
independent validation by the Internal Review Office of the proper application of
the methodology during the MOCAS post payment audit. The Deputy Director
also stated that the fuel computer system is scheduled for post payment audit in
June 2006. He stated actions for this recommendation will be completed by
August 1, 2006.

Audit Response. The Central Site Deputy Director comments are partially
responsive. We will review the status of corrective actions during our ongoing


                                    10
DoD-wide audit of the identification and reporting of improper payments. No
further comments are required.

       e. Implement the recommendations of the Defense Finance and
Accounting Service-Columbus in the Compliance Review of Fuel Systems
and test to determine whether internal controls are working as intended.

Management Comments. The Central Site Deputy Director concurred and
stated that the Fuels Payment Division will implement the recommendations from
the Compliance Review of the Fuels System. He stated that testing to determine
whether internal controls are working as intended will be accomplished according
to the Federal Managers’ Financial Integrity Act standardized matrices. He also
stated that the Federal Managers’ Financial Integrity Act reviews are completed
quarterly by the Division and that the Audit Support Branch will perform a
Compliance Review no later than October 1, 2006.

     f. Establish controls to categorize the root causes of improper
payments.

Management Comments. The Central Site Deputy Director partially concurred
and stated that there are existing reason codes that identify the root causes of
improper payments recorded in IPOD and these codes are updated as needed. He
also stated that guidance to reiterate the proper use of the codes will be
documented and provided to all payment offices by July 3, 2006.

Audit Response. The Central Site Deputy Director’s comments are partially
responsive. The existing codes do not identify specific root causes and the
Deputy Director needs to recognize that the codes need to be updated. The code
“System Problem,” for example, is too general a term to classify possible ongoing
systemic problems. DESC not updating fuel prices, contractor, or contract details
may have been the root cause for many IPOD existing reason codes. We request
that the Deputy Director reconsider his position on the recommendation and
provide comments on the final report.

2. We recommend that the Director, Defense Energy Support Center,
Defense Logistics Agency comply with Federal Acquisition Regulations and
DoD Regulations to:

       a. Submit reconciliation requests for completed contracts on
DD Form 1594-Contract Completion Statements to the Defense Finance and
Accounting Service-Columbus in accordance with the Federal Acquisition
Regulation Subpart 4.804-4 and the Defense Energy Procurement
Instruction.

Management Comments. The Director concurred and stated that, as stated in
the report, DFAS Columbus established an electronic report as a central receiving
point for DD Form 1594s in November 2005. He also stated that DESC intends
to revise the Defense Energy Procurement Instruction to require all contracting
divisions to use the DFAS Columbus electronic mailbox for submitting their DD
Form 1594s by May 31, 2006.


                                   11
       b. Establish a system to monitor contract reconciliations.

Management Comments. The Director concurred and stated that in order to
preclude future loss of documents and untimely submissions, DESC will develop
an electronic control system to track the DD Form 1594 submissions to DFAS.
He also stated that the tracking system, with associated metrics and progress
visibility, will become operational once DFAS establishes their automated
reconciliation system on September 30, 2006.

      c. Allow Defense Finance and Accounting Service-Columbus access to
Defense Energy Support Center contract systems.

Management Comments. The Director concurred and stated that upon DFAS’
request for contract-specific archived data, DESC will upload the pertinent
information into a temporary Defense Fuel Automated Management Systems file.
DFAS will then be able to enter Defense Fuel Automated Management Systems
and run a query to access the data. He also stated that a business process will be
developed between DESC and DFAS to institutionalize these procedures.
Additionally, he stated that when the Into-Plane Program moves to the Fuels
Enterprise Server, DFAS will have direct access to the Fuels Enterprise Server for
information by June 30, 2006.

       d. Report reconciliation and closing for fuel contracts as internal
control weaknesses.

Management Comments. The Director concurred and stated that DESC will
establish an internal control objective for the timely and accurate closeout of
DESC contracts. He also stated that they have already initiated the development
of an electronic control system to track the DD Form 1594 submission to DFAS,
as described in response to Recommendation 2.b. He stated that DESC will work
closely with DFAS to ensure that resolving reconciliation process issues, a DFAS
responsibility, is included in the overall closeout process by September 30, 2006.

       e. Issue updated procedures for reviewing improper payment
referrals from data mining.

Management Comments. The Director concurred and stated that DESC recently
revised duplicate billing filters to reduce the likelihood of duplicate payments. He
stated that in order to ensure that Into-Plane contractors followed proper
procedures in invoice submission, DESC-P (contracting) issued a letter to all Into-
Plane merchants regarding proper submission of corrected or duplicate
transactions. He also stated that in addition to the improvements to the duplicate
billing procedures, DESC-K issued a Fuel Card Standard Operating Procedure
(DESC-K-05-1) implementing the performance of a statistical sampled quarterly
analysis to mitigate risk of improper manual transactions from being entered and
processed in the Automated Voucher Examination Disbursing System. He stated
that the action was completed.

3. We recommend that the Commanding General, U.S. Army Investigative
Command; Director, Naval Criminal Investigative Services; Inspector
General, Department of the Air Force; and the Deputy Inspector General,

                                    12
Defense Criminal Investigative Services coordinate worldwide fuel-related
investigations with the Fuel Fraud Attorney, Defense Energy Support
Center.

Management Comments. The investigative organizations concurred with the
recommendation. The U.S. Army Criminal Investigative Command expects an
updated version of their Regulation 195-1, Chapter 11, incorporating this
recommendation to be published by June 30, 2006. The Navy Criminal
Investigative Service stated that their implementation would be effective
immediately. The Air Force Director of Criminal Policy and Programs, Office of
Special Investigations, concurred by e-mail and stated that they were already
coordinating with DESC. The Defense Criminal Investigative Service concurred
without comments in an e-mail and the e-mail was not scanned in the
Management Comments section. The Special Assistant to the Deputy Inspector
General for Intelligence verbally agreed to immediate implementation.




                                  13
Appendix A. Scope and Methodology
    We assessed whether DoD complied with the requirements of the, “Improper
    Payments Information Act of 2002 (Public Law No. 107-300),” as implemented
    in the Under Secretary of Defense (Comptroller)/Chief Financial Officer
    Oct. 7, 2003, Memorandum and OMB Memorandum M-03-13, May 21, 2003.
    We obtained DoD survey information for FYs 2003-2005 that DFAS-Columbus
    compiled on payments and improper payments. We analyzed the survey
    information to determine whether DFAS-Columbus identified all improper
    payments, as defined by OMB guidance. We also obtained summary information
    related to fuels from DoD investigative agencies. We visited DESC and DFAS-
    Columbus to determine whether they complied with contracting procedures that
    require the timely reconciliation and closing of contracts.
    We performed this audit from May 2005 through February 2006 in accordance
    with generally accepted government auditing standards. Further details on
    organizations visited are available upon request.

    Use of Computer-Processed Data. We used computer-processed information
    from fuel systems that DESC manages and from the DFAS vendor pay system for
    fuels. We did not audit the reliability of the computer-processed contract data that
    we analyzed. The reliability of the data was not a critical factor in identifying and
    reporting improper payments.

    Use of Technical Assistance. The Data Mining Division, Office of the Deputy
    Inspector General for Auditing provided us with information on the databases of
    fuel payments it provided to DESC to research for improper payments.

    Government Accountability Office High-Risk Area. The Government
    Accountability Office has identified several high-risk areas in DoD. This report
    provides coverage of the DoD Financial Management and DoD Contract
    Management high-risk areas.

Prior Coverage
    During the last 5 years, the Department of Defense Inspector General (DoD IG)
    issued one report on improper payments and one reports on fuel. Unrestricted
    DoD IG reports can be accessed at http://www.dodig.mil/audit/reports. The
    Air Force also issued one report.

    DoD IG
    DoD IG Report No. D-2005-0100, “Identification and Reporting of DoD
    Erroneous Payments,” August 17, 2005

    DoD IG Report No. D-2003-003, “Controls for the DoD Aviation Into-Plane
    Reimbursement Card,” October 3, 2002


                                         14
Air Force
Air Force Audit Agency Report F2003-0007-FC4000, “Air Force Management of
Aviation Fuel Purchases,” February 13, 2003




                                15
Appendix B. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)/Chief Financial Officer
  Deputy Chief Financial Officer

Department of the Army
Assistant Secretary of the Army (Financial Management and Comptroller)
Auditor General, Department of the Army

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force

Other Defense Organizations
Director, Defense Finance and Accounting Service
Director, Defense Logistics Agency
   Director, Defense Energy Support Center
Deputy Inspector General, Defense Criminal Investigative Service

Non-Defense Federal Organization
Office of Management and Budget




                                          16
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Management, Finance, and Accountability
  Management, Committee on Government Reform
House Subcommittee on National Security, Emerging Threats, and International
  Relations, Committee on Government Reform




                                         17
Defense Energy Support Center Comments




                    19
20
     Final Report
      Reference




     Omitted




     Changed on
     page 5 and
     page 8.




21
Defense Finance and Accounting Service
Comments




                      22
23
24
25
Department of the Army Comments




                    26
Department of the Navy Comments




                    27
Department of the Air Force Comments




                     28
     Final Report
      Reference




     Corrected
     page 7.




     Corrected
     page 7.

     Corrected
     page 7.




29
Defense Criminal Investigative Service
Comments




                       30
Team Members
The Department of Defense Office of the Deputy Inspector General for Auditing,
Defense Financial Auditing Service prepared this report. Personnel of the
Department of Defense Office of Inspector General who contributed to the report
are listed below.

Paul J. Granetto
Patricia A. Marsh
James L. Kornides
Curt W. Malthouse
Barry N. Harle
Kelly E. Prillaman
Col. William Kelly
Pamela Varner
Alejandra Rodriguez
Jacqueline Pugh
Ann Thompson
